No. ______
In the

Supreme Court of the United States
__________________

KEITH INCHIERCHIERE,
Petitioner,
v.
FLORIDA DEPARTMENT OF CORRECTIONS;
ATTORNEY GENERAL OF THE STATE OF FLORIDA,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

Andrew B. Greenlee, Esq.
Counsel of Record
Andrew B. Greenlee, P.A.
401 E. 1st Street, Unit 261
Sanford, Florida 32772
407-808-6411
andrew@andrewgreenleelaw.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Does a defendant receive ineffective assistance of
counsel where his retained attorney fails to appear on
the first day of trial, and, after receiving misadvice
regarding his sentencing exposure from a public
defender previously assigned to the case, the defendant
takes a guilty plea that results in a seventy-year term
of incarceration?
2. Does a defendant receive ineffective assistance of
counsel where a public defender advises him that he
will receive a fifteen-year term of imprisonment if he
pleads guilty but life imprisonment if he goes to trial,
and, relying on that advice, the defendant enters a
guilty plea that results in a sentence of seventy years
of incarceration?

ii
PARTIES TO THE PROCEEDING
There are no parties to the proceeding other than
those named in the caption of the case.
STATEMENT OF RELATED PROCEEDINGS
• State of Florida v. Inchierchiere, Case
No. 432008CF001709A (Fla. 19th Cir. Ct. 2010)
(judgment issued on January 22, 2010)
• Inchierchiere v. State of Florida, Case No. 4D10494 (Fla. 4th DCA 2010) (mandate issued on
June 24, 2011)
• State of Florida v. Inchierchiere, Case
No. 432008CF001709A (Fla. 19th Cir. Ct. 2010)
(order denying motion for post-conviction relief
entered on September 20, 2016)
• Inchierchiere v. State of Florida, Case No. 4D164141 (Fla. 4th DCA 2017) (mandate issued on
April 28, 2017)
• Inchierchiere v. Florida Department of
Corrections, Case No. 2:17-cv-14260-RLR (S.D.
Fla. 2019) (order adopting report and
recommendation and denying petition for writ of
habeas corpus entered on May 31, 2019)
• Inchierchiere v. Florida Dep’t of Corr., Attorney
General of the State of Florida, Case No. 1912468 (11th Cir. 2019) (order denying certificate
of appealability entered on Sept. 26, 2019)

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
DECISIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
APPENDIX
Appendix A Order in the United States Court of
Appeals for the Eleventh Circuit
(September 26, 2019) . . . . . . . . . . App. 1
Appendix B Order Adopting Magistrate’s Report
and Recommendation in the United
States District Court, Southern
District of Florida
(May 31, 2019) . . . . . . . . . . . . . . . App. 7

iv
Appendix C Report and Recommendation on
Amended Petition under 28 U.S.C.
§ 2254 for Writ of Habeas Corpus
(DE 5) in the United States District
Court, Southern District of Florida
(April 2, 2019) . . . . . . . . . . . . . . . App. 13
Appendix D O r d e r
Denying
Motion for
Reconsideration in the United States
Court of Appeals for the Eleventh Circuit
(October 28, 2019) . . . . . . . . . . . . App. 57

v
TABLE OF AUTHORITIES
CASES
Bradshaw v. Stumpf,
545 U.S. 175 (2005). . . . . . . . . . . . . . . . . . . . . . . 10
Brady v. United States,
397 U.S. 742 (1970). . . . . . . . . . . . . . . . . . . . . . . 10
Caplin & Drysdale,
491 U.S. 617 (1989). . . . . . . . . . . . . . . . . . . . . . . 12
Hill v. Lockhart,
474 U.S. 52 (1985). . . . . . . . . . . . . . . . . . . . . 11, 14
Lee v. United States,
137 S. Ct. 1958 (2017). . . . . . . . . . . . . 8, 11, 13, 14
Missouri v. Frye,
566 U.S. 134 (2012). . . . . . . . . . . . . . . . . . . . . . . 10
North Carolina v. Alford,
400 U.S. 25 (1970). . . . . . . . . . . . . . . . . . . . . . . . 10
Padilla v. Kentucky,
559 U.S. 356 (2010). . . . . . . . . . . . . . . . . . . . . . . 10
Powell v. Alabama,
287 U.S. 45 (1932). . . . . . . . . . . . . . . . . . . . . . . . 12
Roe v. Flores-Ortega,
528 U.S. 470 (2000). . . . . . . . . . . . . . . . . . . . . . . 11
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Gonzalez-Lopez,
548 U.S. 140 (2006). . . . . . . . . . . . . . . . 7, 9, 12, 13

vi
CONSTITUTION
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 5

1
PETITION FOR WRIT OF CERTIORARI
The Petitioner, Keith Inchierchiere, respectfully
petitions the Court for a writ of certiorari to review the
Order of the Eleventh Circuit Court of Appeal denying
him a certificate of appealability.
DECISIONS BELOW
The unpublished report and recommendation from
a magistrate judge recommending the denial of
Petitioner’s federal habeas petition is reproduced in the
appendix at App. 13. The district court adopted the
report and recommendation, denied Petitioner’s habeas
petition, and declined to issue a certificate of
appealability. That order is reproduced at App. 7.
The Eleventh Circuit issued an unpublished order
denying Petitioner’s request for a certificate of
appealability.
That order is reproduced in the
appendix at App. 1. The Eleventh Circuit’s denial of
his Motion for Reconsideration is attached at App. 57.
STATEMENT OF JURISDICTION
The district court had subject matter jurisdiction
over this federal habeas petition under 28 U.S.C.
§ 2254. The Eleventh Circuit issued its Order on
September 26, 2019. App. 1. That court denied
Petitioner’s Motion for Reconsideration on October 28,
2019. App. 57.
On January 6, 2020, Petitioner applied for a thirtyday extension of time to file a petition for writ of
certiorari. This Court granted the application and
extended the deadline until February 25, 2020. This

2
timely petition for writ of certiorari follows. This Court
has jurisdiction. 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Sixth Amendment provides, “In all criminal
prosecutions, the accused shall enjoy the right . . . to
have the Assistance of Counsel for his defence.” U.S.
Const. amend. VI.
STATEMENT OF THE CASE
On January 7, 2009 the Petitioner was charged by
way of an information with attempted felony murder,
burglary of a dwelling with an assault or battery while
armed, attempted first degree murder with a weapon,
and aggravated battery. App. 17.
Prior to trial, Petitioner consulted with a private
attorney, Michael Robert Ohle, Esq (“Ohle”). App. 18.
Ohle was aware that Petitioner’s case was set for trial
on October 5, 2009. On October 1, 2009, Petitioner and
his family had a cashier’s check issued for $5,000.00,
the full amount of Ohle’s retainer fee, and sent it to the
address provided. However, Ohle did not file a notice
of appearance, did not call the trial court’s chambers,
and did not appear on October 5, 2009, for Petitioner’s
trial. App. 18.
At a hearing on October 5, 2009, the trial court
refused to continue the trial despite Petitioner’s
assertion that he had retained private counsel. App. 1718. The public defender who appeared on Petitioner’s
behalf noted “the seriousness of the charges,” stated
that he had only had the file since August 6, 2009, and
opined that continuing the case to the next trial docket

3
would not be “inherently unreasonable.” App. 18. The
public defender also indicated he had spoken with
Ohle’s office that morning and confirmed that
Petitioner had paid Ohle’s retainer.
In response, the counsel for the State said, “Judge,
you and I both know that Mr. Ohle will come here on
the 19th and say he’s not ready.” The State did not
want the trial postponed because the victim had “been
through enough the last ten months.” Though he
stated he was ready to try the case, the public defender
pointed out that another equally old case also needed
to be tried. The defendant in that case remained in
custody, so court could have proceeded with that trial.
Nevertheless, the trial court denied the request for
a continuance, finding Petitioner’s case more important
than that case because, “you know, life can be
imposed.” It ruled that Petitioner’s trial would go
forward that day, regardless of who represented him.
App. 18. After the ruling, the public defender indicated
that Petitioner would be entering a change of plea.
During the plea colloquy, Petitioner said that the plea
was in his “best interest” but also told the court that he
was “innocent of the charge.” App. 18.
In his post-conviction papers, Petitioner averred
that he did not have faith in the ability of the public
defender and felt he had no choice but to change his
plea because he believed he stood no chance of an
acquittal with the public defender. He further averred
that, had Ohle appeared for trial, he would not have
changed his plea and would have instead gone to trial.
App. 8.

4
Petitioner also asserted that the public defender
advised him that his sentence would not exceed fifteen
years if he pled guilty because the trial court would
consider his admission of guilt and acceptance of
responsibility for his actions. On the other hand,
according to the public defender, if he opted to go to
trial that day and lost, the trial court would sentence
him to life. App. 25. Thus, Petitioner alleged that,
although he never had the chance to consult with
counsel of his choice, he was forced to take a guilty plea
on the same day his case was set for trial.
At Petitioner’s sentencing, the trial court sentenced
him to seventy years of incarceration on the burglary of
a dwelling charge and thirty years of incarceration on
the attempted second degree murder charge, to run
concurrently. App. 21.
On direct appeal, Petitioner argued that his
sentence should be reversed because the prosecutor
used emotional and inflammatory arguments and
relied upon facts not in evidence to influence the
sentencing judge. App. 21. The Fourth District Court
of Appeal affirmed the sentence in an unwritten
opinion. App. 22.
Petitioner filed a motion for post-conviction relief
that raised three grounds:
(1)

Privately retained counsel Ohle provided
ineffective assistance by failing to make
an appearance on the day of trial to
request a continuance.

(2)

Counsel provided ineffective assistance of
counsel by misadvising Inchierchiere that

5
he would not receive a sentence longer
than fifteen years in return for the nocontest plea but a life sentence if he went
to trial and lost.
(3)

Counsel provided ineffective assistance of
counsel by failing to timely move for postsentencing recusal of the trial court judge.

App. 24-25. During a separate post-conviction
proceeding, Petitioner adduced evidence that the
sentencing judge announced on the record in a
sentencing hearing that predated his guilty plea “his
personal preference for sentencing defendants to life
wherever Florida law permits life sentences.” App. 22.
On November 9, 2016, the post-conviction court entered
an order denying relief without holding an evidentiary
hearing. App. 25.
After the appellate court affirmed that ruling,
Petitioner renewed his first two grounds in a timely
federal habeas petition filed under § 2254. App. 25.
The case was assigned to a magistrate judge, who
issued a report and recommendation recommending
that the district court deny Petitioner relief on the
merits. App. 56. With regard to Petitioner’s first claim,
that Ohle attorney provided ineffective assistance of
counsel by failing to attend the first day of trial, the
magistrate assumed that Ohle performed deficiently.
App. 47. However, it found that Petitioner could not
establish prejudice because the trial court had
announced that it would not have granted a
continuance regardless of whether Ohle or the public
defender were in court that day. App. 47.

6
The magistrate also observed that the public
defender was prepared to go to trial that day, which
weighed against a finding of prejudice, and noted that
Petitioner did not make any statements during the plea
colloquy that would suggest some sort of pressure or
duress. App. 48.
With regard to Petitioner’s second claim—that
defense counsel provided ineffective assistance of
counsel when he advised Petitioner that he would
receive a sentence of fifteen years of incarceration if he
pled guilty but would receive life if Petitioner lost at
trial—the magistrate found that the plea colloquy
conclusively refuted Petitioner’s contention because he
was advised of the sentencing range. App. 49. Thus,
the magistrate concluded that he could not articulate
prejudice from this misadvice because of what it
described as the “preclusive effect” of the plea colloquy,
where the trial court told him that his sentence
remained an “open question.” App. 50.
In arriving at that conclusion, the magistrate judge
faulted Petitioner for not establishing how “going to
trial would have been the more rational choice”:
The Petitioner does not rate the strength of
his defense or his likelihood of prevailing at
trial. His defense would have to address several
unfavorable points. There is the issue of how he
deliberately sought out the victim with an
aggressive purpose and while intoxicated. Even
if the altercation spiraled beyond what he
intended, he was the one who had started it.
This Court discerns no exculpatory evidence or
witness testimony in the Petitioner’s favor.

7
***
Few rational defendants facing a possible life
sentence would insist on contesting guilt where
there is no real chance of acquittal and where
admitting guilt improves the chance of avoiding
that life sentence.
App. 51, 52. Based on this reasoning, the magistrate
recommended the district deny the claim without
holding an evidentiary hearing. App. 53-54.
Petitioner objected to the report and
recommendation. With regard to the first ground, he
argued that the report and recommendation appears to
have overlooked his allegation that he would have
proceeded to trial had he not been forced to proceed
with the public defender, instead of counsel of his
choice. App. 8.
He also maintained that he established prejudice
because he was “forced to make an important
decision”—whether or not to plead guilty—“without
retained counsel of choice.” App. 8. Petitioner argued
that, under this Court’s decision in United States v.
Gonzalez-Lopez, 548 U.S. 140 (2006), prejudice should
be presumed because he was “completely abandoned by
retained counsel of choice at a critical stage of the
proceeding.” However, the district court overruled his
objection and rejected his reliance on Gozalez-Lopez
because in that case the Government conceded that the
district court erred when it denied the defendant his
choice of counsel. App. 9.

8
Petitioner also objected to the magistrate’s
recommended disposition of the second claim.
Specifically, he challenged the conclusion that
Petitioner derived any benefit from an open plea.
Petitioner argued that the trial court judge, as
evidenced by his own words, would have given him a
life sentence regardless of whether he took a plea and
argued that defense counsel, who was no stranger to
that court, should have advised him of this fact instead
of falsely telling him he would receive no more than
fifteen years of incarceration if he pled guilty.
With regard to the prejudice inquiry, Petitioner
likened his case to Lee v. United States, 137 S. Ct. 1958
(2017) because no matter how much of a longshot going
to trial might have been, it would have been rational
for him to pursue that course when the alternative was
to receive an all-but-certain life sentence. See App. 1011.
The district court overruled that objection as well,
holding that Petitioner sustained no prejudice as a
result of the alleged failure to warn him of the trial
court’s sentencing reputation. App. 11. The district
court thusly adopted the report and recommendation,
denied Petitioner’s habeas petition without conducting
an evidentiary hearing, and denied him a certificate of
appealability. App. 11.
Petitioner moved the Eleventh Circuit for a
certificate of appealability, but the appellate court
denied his motion. Like the magistrate, the Eleventh
Circuit assumed that defense counsel provided
deficient performance when he failed to show up for the
first day of trial. App. 3.

9
The Eleventh Circuit concluded, however, that
Petitioner could not establish prejudice. App. 3. In the
view of the Eleventh Circuit, Petitioner “received the
competent assistance of his public defender on the first
day of his trial, who asked the court for a continuance
on Inchierchiere’s behalf.” App. 3.
Like the district court, the Eleventh Circuit found
Gozalez-Lopez inapplicable because the “trial court did
not wrongfully deny Mr. Inchierchiere the benefit of
retaining counsel.” App. 3. It reasoned that Petitioner
did not retain counsel until four days before trial, so
the exclusion of his chosen counsel was attributable to
a scheduling decision on the part of the trial court.
App. 3. It also concluded that Petitioner was not
entirely denied counsel because the public defender
was present and ready to try the case. App. 4.
The Eleventh Circuit denied Petitioner’s second
claim as well. App. 5. According to the Eleventh
Circuit, Petitioner could not establish prejudice
because the “plea form and plea colloquy informed him
he could receive any sentence up to the statutory
maximum sentence of life,” and Petitioner stated
during the colloquy that he received no promises as to
the sentence. App. 5. Accordingly, the Eleventh
Circuit denied Mr. Inchierchiere a certificate of
appealability because “reasonable jurists would agree”
that he received effective assistance of counsel. App. 6.
Petitioner moved for reconsideration of that
decision. He pointed out that the Eleventh Circuit
overlooked a critical aspect of his second claim, i.e.,
that Petitioner was advised he would receive a life
sentence if he proceeded to trial and was found guilty.

10
He argued that this advice constituted a gross
misrepresentation of his sentencing exposure and
rendered his plea involuntary. The Eleventh Circuit
denied his motion. App. 57.
For the reasons that follow, this Court should grant
this petition and issue a writ of certiorari to the
Eleventh Circuit.
REASONS FOR GRANTING THE WRIT
This petition raises important questions regarding
the outer limits of effective assistance of counsel in the
plea bargaining context. In Brady v. United States,
this Court observed that the decision to enter a guilty
plea “is a grave and solemn act to be accepted only with
care and discernment.” 397 U.S. 742, 748 (1970).
Because it operates as a waiver of important
constitutional rights, the plea must be entered
“knowingly, and intelligently, ‘with sufficient
awareness of the relevant circumstances and likely
consequences.’” Bradshaw v. Stumpf, 545 U.S. 175, 183
(2005) (quoting Brady, 397 U.S. at 748). It must reflect
“a voluntary and intelligent choice among the
alternative courses of action open to the defendant.”
North Carolina v. Alford, 400 U.S. 25, 31 (1970).
The “the negotiation of a plea bargain, rather than
the unfolding of a trial, is almost always the critical
point for a defendant.” Missouri v. Frye, 566 U.S. 134,
144 (2012). Thus, before “deciding whether to plead
guilty or proceed to trial, a defendant is entitled to the
effective assistance of competent counsel.” Padilla v.
Kentucky, 559 U.S. 356, 364 (2010).

11
To prevail on an ineffective assistance of counsel
claim, a petitioner must establish that: a) counsel’s
performance was deficient; and b) the deficient
performance caused prejudice to the defendant.
Strickland v. Washington, 466 U.S. 668, 687-688
(1984).
To establish prejudice under Strickland, a
defendant does not need to show that he was likely to
be successful at trial, but instead “can show prejudice
by demonstrating a ‘reasonable probability that, but for
counsel’s errors, he would not have pleaded guilty and
would have insisted on going to trial.’” Lee, 137 S. Ct.
at 1965 (2017) (quoting Hill v. Lockhart, 474 U.S. 52,
59 (1985)). “That is because, while we ordinarily ‘apply
a strong presumption of reliability to judicial
proceedings,’ ‘we cannot accord’ any such presumption
‘to judicial proceedings that never took place.’” Lee, 137
S. Ct. at 1965 (quoting Roe v. Flores-Ortega, 528 U.S.
470, 482-83 (2000)). This Court must therefore
consider how counsel’s provision of inaccurate
information affected the “defendant’s decisionmaking,
which may not turn solely on the likelihood of
conviction after trial.” Lee, 137 S. Ct. at 1966.
In this case, the Eleventh Circuit assumed that
retained counsel provided deficient performance by
failing to show up on the first day of trial. App. 3. Yet
it held that Petitioner could not show prejudice because
the public defender filled in for retained counsel. There
are several flaws in this ruling.
As an initial matter, the analysis of the Eleventh
Circuit gives short shrift to Petitioner’s right to counsel
of his choice. “The right to select counsel of one’s

12
choice” is “the root meaning” of the Sixth Amendment
right to counsel. Gonzalez-Lopez, 548 U.S. at 147-148
(2006). The Sixth Amendment guarantees criminal
defendants “the right to be represented by an otherwise
qualified attorney whom that defendant can afford to
hire,” Caplin & Drysdale, 491 U.S. 617, 624 (1989), but
it also ensures that defendants have “a fair opportunity
to secure counsel of [their] choice.” Powell v. Alabama,
287 U.S. 45, 52-53 (1932) (emphasis added).
“Where the right to be assisted by counsel of one’s
choice is wrongly denied, therefore, it is unnecessary to
conduct an ineffectiveness or prejudice inquiry to
establish a Sixth Amendment violation.” GonzalesLopez, 548 U.S. at 148. “Deprivation of the right is
‘complete’ when the defendant is erroneously prevented
from being represented by the lawyer he wants,
regardless of the quality of the representation he
received.” Id.
It is true, as the Eleventh Circuit opined, that
courts have “wide latitude” in balancing the right to
counsel against the demands of its calendar. Id. at 152.
However, in this case, the Court had another case of
similar vintage that could have gone to trial. Thus, any
concerns about managing its docket should have given
way to the concerns about Petitioner’s deprivation of
counsel of his choice. And the factor the trial court
relied on in denying a continuance—the severity of the
crime—cuts the other way. The greater the potential
sentence a defendant faces, the more important his
right to counsel of his choice becomes. Since Petitioner
was erroneously deprived of counsel of his choice, he
did not need to establish prejudice. This Court should

13
grant certiorari to determine whether, as argued above,
the rule announced in Gonzales-Lopez applies to the
facts of this case.
Even if the Court finds that a showing of prejudice
is necessary, the Eleventh Circuit’s ruling is still
unsustainable because Petitioner suffered acute
prejudice. Petitioner was forced to choose between
going to trial with an attorney he did not trust and
taking a guilty plea to a crime he claimed he did not
commit. And, because his retained counsel abandoned
him, Petitioner received patently erroneous advice from
the public defender regarding the sentencing
predilections of the presiding judge.
The public defender specifically advised Petitioner
that (1) his sentence would not exceed fifteen years if
he pled guilty; but (2) he would get life if he took the
case to trial. If Petitioner had known the truth, that is,
this particular judge would have given him a de facto
life sentence regardless of whether he took a plea, then
Petitioner surely would have rolled the dice and taken
the case to trial.
In this regard, the case resembles Lee, where the
Government argued that the defendant could not show
prejudice because he “had no viable defense at trial,
[so] he would almost certainly have lost and found
himself still subject to deportation, with a lengthier
prison sentence to boot.” Lee, 137 S. Ct. at 1966. The
defendant, by contrast, argued that “he would have
gambled on trial, risking more jail time for whatever
small chance there might be of an acquittal that would
let him remain in the United States.” Id. This Court
sided with the defendant and ruled that he had

14
“adequately demonstrated a reasonable probability
that he would have rejected the plea had he known
that it would lead to mandatory deportation.” Id. at
1967.
This case is even more compelling than Lee. Unlike
in Lee, where the defendant would have faced a
lengthier term of incarceration as a result of going to
trial, Petitioner had a risk-free opportunity to take his
chances at trial—regardless of whether he entered a
guilty plea or got convicted after a jury trial, he was
going to receive a life sentence. Under those
circumstances, it would make little sense not to go to
trial.
Furthermore, he alleged that he would, in fact, have
taken the case to trial if retained counsel had shown
up. That allegation went unrebutted, and Petitioner
never received a hearing to prove this point. The
magistrate still declined to credit his assertion,
reasoning that Petitioner had not shown he had any
viable defense at trial. Yet, in the wake of Lee, courts
are not supposed to look to whether a defendant would
prevail at trial. Instead, a defendant “can show
prejudice by demonstrating a ‘reasonable probability
that, but for counsel’s errors, he would not have
pleaded guilty and would have insisted on going to
trial.’” Lee, 137 S. Ct. at 1965 (2017) (quoting Hill v.
Lockhart, 474 U.S. 52, 59 (1985)). That is precisely
what Petitioner alleged in his sworn habeas petition.
Accordingly, at the very least, Petitioner should have
received an evidentiary hearing to prove his allegation.

15
Given the gravity of the issues presented, this Court
should grant this petition, issue a writ of certiorari,
and remand this case for further proceedings.
CONCLUSION
This Court grant this petition, issue a writ of
certiorari to the Eleventh Circuit Court of Appeals, and
remand this matter for further proceedings.
Respectfully submitted on this 25th day of
February, 2020.
Respectfully submitted,
Andrew B. Greenlee, Esq.
Counsel of Record
Andrew B. Greenlee, P.A.
401 E. 1st Street, Unit 261
Sanford, Florida 32772
407-808-6411
andrew@andrewgreenleelaw.com
Counsel for Petitioner

